App. No. 20-

In the Supreme Court of the United States

Dr. Lakshmi Arunachalam, a woman,
Petitioner,
v.
CITIGROUP INC., CITICORP, CITIBANK, N.A.
Respondents,
On Petition for Writ of Certiorari to
the United States Court of Appeals for the Federal Circuit

PETITION FOR WRIT OF CERTIORARI
APPENDICES la, 4a, 6a and 7a

Dr. Lakshmi Arunachalam, a woman,
SELF-REPRESENTED PETITIONER
222 Stanford Avenue
Menlo Park, CA 94025
(650) 690-0995
(650) 854-3393 (FAX)
laks22002@yahoo.com

February 18, 2021

32

App. la
Federal Circuit Order of dismissal
(11/3/20)

11/3/2020

18 ORDER filed granting the motion
for leave to proceed in forma
pauperis [2] filed by Appellant
Doctor Lakshmi Arunachalam. The
appeal is dismissed. Each side shall
bear its own costs. (Per Curiam).
Service as of this date by the Clerk
of Court. [733231] [LMS] [Entered:
11/03/2020 10:44 AM]

Case: 20-2196

Document: 18

Page: 1

Filed: 11/03/2020

Note: This order is nonprecedential.

®niteb States Court of Appeals
for tfje jfeberal Circuit
LAKSHMI ARUNACHALAM,
Plaintiff-Appellant
v.
CITIGROUP INC., CITICORP, CITIBANK, N.A.,
Defendants-Appellees

2020-2196

Appeal from the United States District Court for the
District of Delaware in No. l:14-cv-00373-RGA, Judge
Richard G. Andrews.

ON MOTION

Per Curiam.
ORDER
Dr. Lakshmi Arunachalam moves for leave to proceed
in forma pauperis. Upon consideration of Dr. Arunachalam’s complaint, the judgment of the United States District
Court for the District of Delaware, and the opening infor­
mal brief, the court dismisses this appeal under 28 U.S.C.
§ 1915(e)(2)(B).

Case: 20-2196

2

Document: 18

Page: 2

Filed: 11/03/2020

ARUNACHALAM V. CITIGROUP INC.

Dr. Arunachalam filed the operative complaint on
March 24, 2014, asserting infringement of U.S. Patent Nos.
5,987,500 (“the ’500 patent”) and 8,108,492 (“the ’492 pa­
tent”). The parties agreed to stay the matter pending this
court’s review of a related case’s judgment of invalidity over
claims of the same two patents. Dr. Arunachalam sought
to amend the complaint to assert U.S. Patent No. 7,340,506
(“the ’506 patent”). On June 18, 2020, the district court
dismissed the underlying case after finding that all claims
of the patents Dr. Arunachalam was asserting or attempt­
ing to assert were either finally declared invalid or are
claims she is collaterally estopped from asserting. This ap­
peal followed.
The court waives the fee on the ground that Dr. Aru­
nachalam meets the standards for in forma pauperis sta­
tus. However, we must now consider whether this appeal
should be dismissed as lacking any arguable basis either in
law or in fact. See § 1915(e)(2)(B) (“[T]he court shall dis­
miss the case at any time if the court determines that . . .
[the] appeal... is frivolous . . . .”); Neitzke v. Williams, 490
U.S. 319, 325 (1989) (holding that an appeal is frivolous if
it “lacks an arguable basis either in law or in fact”). We
conclude that the appeal so qualifies and must be dis­
missed.
As previously explained to Dr. Arunachalam, claims of
the ’500 patent and ’492 patent were invalidated by deci­
sions of a district court and the Patent Trial and Appeal
Board, and Dr. Arunachalam was found to be collaterally
estopped from asserting all remaining claims of these pa­
tents based on those decisions. Arunachalam v. Presidio
Bank, 801 F. App’x 750, 751-54 (Fed. Cir. 2020). As to the
’506 patent, this court recently explained that a final deci­
sion of the Board had invalidated the remaining claims of
that patent. Arunachalam v. Int’l Bus. Machs. Corp., 759
F. App’x 927, 930 (Fed. Cir. 2019).

Case: 20-2196

Document: 18

Page: 3

Filed: 11/03/2020

3

ARUNACHALAM v. CITIGROUP INC.

The district court acknowledged that precedent, and
Dr. Arunachalam’s opening brief on appeal asserts argu­
ments she raised previously and that this court repeatedly
has rejected: arguments based primarily on the Contracts
Clause and Fletcher v. Peck, 10 U.S. 87 (1810), on “prose­
cution history estoppel” and Aqua Products, Inc. v. Matal,
872 F.3d 1290 (Fed. Cir. 2017),1 and error in a Delaware
district court judge’s recusal decisions.2 As such, Dr. Arunachalam has failed to provide any arguable basis in law
or fact capable of supporting her appeal, and we therefore
conclude that this appeal is frivolous. Neitzke, 490 U.S. at
325.
Accordingly,
It Is Ordered That:
(1) The motion for leave to proceed in forma pauperis
is granted.
(2) The appeal is dismissed.
(3) Each side shall bear its own costs.

For the Court
November 03. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

s31

1 Arguments previously rejected in Arunachalam,
759 F. App’x at 930; see also In re Arunachalam, No. 2019112 (Fed. Cir. Mar. 27, 2019); In re Arunachalam, No.
2019-113 (Fed. Cir. Mar. 27, 2019); In re Arunachalam, No.
2019-114 (Fed. Cir. Mar. 27, 2019).
2 Arguments also previously rejected.
nachalam, 759 F. App’x at 933—34.

See Aru­

33

App. 4a
Federal Circuit En Banc Rehearing Order
(12/28/20)

12/28/2020 27_ ORDER filed denying [191 petition
for en banc rehearing filed by
Lakshmi Arunachalam. By: En
Banc (Per Curiam). Service as of
this date by the Clerk of Court.
[745349]
[JAB]
[Entered:
12/28/2020 10:26 AM]

Case: 20-2196

Document: 27

Page: 1

Filed: 12/28/2020

NOTE: This order is nonprecedential.

iHutteb States Court of Appeals
for tfje Jfeberat Circuit
LAKSHMI ARUNACHALAM,
Plaintiff-Appellant
v.
CITIGROUP INC., CITICORP, CITIBANK, N.A.,
Defendants-Appellees
2020-2196
Appeal from the United States District Court for the
District of Delaware in No. l:14-cv-00373-RGA, Judge
Richard G. Andrews.
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, Dyk,
Moore, O’Malley, Reyna, Wallach, Taranto, Chen,
and HUGHES, Circuit Judges *
Per Curiam.
ORDER

* Circuit Judge Stoll did not participate.

Case: 20-2196

Document: 27

2

Page: 2

Filed: 12/28/2020

ARUNACHALAM V. CITIGROUP INC.

Appellant Lakshmi Arunachalam filed a petition for
rehearing en banc. The petition was first referred as a
petition for rehearing to the panel that heard the appeal,
and thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on January 4,
2021.

For the Court
December 28. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

34

App. 6a:
District Court Order
(6/18/20)

06/18/2020

99_ ORDER DISMISSING CASE:
Plaintiff’s
claims
are
DISMISSED
with prejudice
(***Ciyil Case Terminated).
Signed by Judge Richard G.
Andrews on 6/18/2020. (nms)
(Entered: 06/18/2020)

Case l:14-cv-00373-RGA Document 99 Filed 06/18/20 Page 1 of 1 PagelD #: 1274

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
DR. LAKSHMI ARUNACHALAM,
Plaintiff,
Civil Action No. 14-373-RGA

v.

CITIGROUP INC., CITICORP, and
CITIBANK, N.A.,
Defendants.

ORDER DISMISSING CASE
For the reasons stated in the accompanying Memorandum, this 18 day of June 2020, IT
IS HEREBY ORDERED that Plaintiff’s claims are DISMISSED with prejudice.

/s/ Richard G. Andrews
United States District Judge

Page 1 of 1

35

App. 7a:
District Court Memorandum
(6/18/20)
06/18/2020 _98_ MEMORANDUM. Signed by
Judge Richard G. Andrews on
6/18/2020. (nms) (Entered:
06/18/2020)

Case l:14-cv-00373-RGA Document 98 Filed 06/18/20 Page 1 of 3 PagelD #: 1271

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
DR. LAKSHMI ARUNACHALAM,
Plaintiff,
Civil Action No. 14-373-RGA

v.
CITIGROUP INC., CITICORP, and
CITIBANK, N.A.,
Defendants.

MEMORANDUM
Whereas, the Court issued an order to show cause why the case should not be dismissed
with prejudice on November 6,2019 (D.I. 67);
Whereas, the parties filed various responses by the twice-continued deadline of January
8,20201 (D.I. 71, 80, 81, 82, 83, 84, 86);2
Whereas, a number of the claims of the two asserted patents (U.S. patent nos. 5,987,500
and 8,108,492) asserted in the complaint (see D.I. 1) were invalidated in Pi-Net v. J.P. Morgan,
No. 12-282-SLR (D.Del), which judgment has since become final;
Whereas, additional claims of the two asserted patents were invalidated in various inter
partes review and covered business method proceedings, which have also become final, see
Arunachalam v. Presidio Bank, 801 F. App’x 750, 752 (Fed. Cir. 2020);

i

(See D.I. 70, 77).
2 The Inventor Rights Act of 2019, cited by Plaintiff, has not been passed, and therefore is not
law.

Case l:14-cv-00373-RGA Document 98 Filed 06/18/20 Page 2 of 3 PagelD #: 1272

Whereas, the District Court for the Northern District of California found in two decisions
hat Plaintiff was collaterally estopped from asserting the claims of the two patents that no
tribunal had invalidated, a judgment that has since been affirmed by the Federal Circuit,3 see id.
at 754;4

3

The Federal Circuit reviewed the California decisions pursuant to the following legal
principles:
When reviewing the application of collateral estoppel, we are “generally guided by
regional circuit precedent, but we apply our own precedent to those aspects of such a
determination that involve substantive issues of patent law.” Ohio Willow Wood Co. v.
Alps South, LLC, 735 F.3d 1333, 1342 (Fed. Cir. 2013). In the Ninth Circuit, “[collateral
estoppel applies to a question, issue, or fact when four conditions are met: (1) the issue at
stake was identical in both proceedings; (2) the issue was actually litigated and decided in
the prior proceedings; (3) there was a full and fair opportunity to litigate the issue; and (4)
the issue was necessary to decide the merits.” Oyeniran v. Holder, 672 F.3d 800, 806 (9th
Cir. 2012). “Where a patent has been declared invalid in a proceeding in which the
‘patentee has had a full and fair chance to litigate the validity of h[er] patent,’... the
patentee is collaterally estopped from relitigating the validity of the patent.” Miss. Chem.
Corp.v. Swift Agric. Chems. Corp., 717 F.2d 1374, 1376 (Fed. Cir. 1983) (quoting
Blonder-Tongue Labs., Inc. v. JJniv. of III. Found., 402 U.S. 313, 333 . . . (1971)).
Further, “[o]ur precedent does not limit collateral estoppel to patent claims that are
identical. Rather, it is the identity of the issues that were litigated that determines whether
collateral estoppel should apply.” Ohio Willow Wood, 735 F.3d at 1342 (emphasis in
original).
Id. at 752. The Third Circuit’s collateral estoppel standard is not substantively different from
that of the Ninth Circuit. Under Third Circuit law, in order for collateral estoppel to apply, a party
must demonstrate that “(1) the identical issue was previously adjudicated; (2) the issue was actually
litigated; (3) the previous determination was necessary to the decision; and (4) the party being
precluded from relitigating the issue was fully represented in the prior action.” Jean Alexander
Cosmetics, Inc. v. L’Oreal USA, Inc., 458 F.3d 244,249 (3d Cir. 2006) (citations omitted). The Third
Circuit also considers whether the party being precluded “had a full and fair opportunity to litigate
the issue in question in the prior action” and “whether the issue was determined by a final and valid
judgment.” Id. (citations omitted).
4 Thus, Plaintiff is doubly collaterally estopped. She is not only collaterally estopped from
asserting the claims not already invalidated, but she is also collaterally estopped from asserting
that she is not collaterally estopped.

Case l:14-cv-00373-RGA Document 98 Filed 06/18/20 Page 3 of 3 PagelD #: 1273

Whereas, all claims of an additional patent (U.S. patent no. 7,340,506) sought to be
asserted in an amended complaint (see D.1.48) were invalidated in PTAB litigation, Case
CBM2016-00081, which judgment has since become final;5
Now, therefore, since all claims of the three patents that Plaintiff either asserts or has
attempted to assert are claims that have either been finally declared invalid or are claims which
she is collaterally estopped from asserting;
A separate order will be entered this 18 day of June 2020 dismissing this case with
prejudice.
1st Richard G. Andrews
United States District Judge

5 The decision in Arthrex, Inc. v. Smith & Nephew, Inc., 941 F.3d 1320 (Fed. Cir. 2019), has no
effect on this case, because it is too late to raise an Arthrex challenge. See Customedia Techs,
LLC v. Dish Network Corp., 941 F.3d 1173 (Fed. Cir. 2019) (per curiam) (Arthrex challenge not
raised in opening appellate brief is forfeited).
Page 3 of3

